V.

June 11, 2020
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Shelton vs. Patterson
19-1253

To the Honorable Justices of the United States Supreme Court:
I am writing this letter in response to a telephone request from the Court stating that
one of the Justices wanted to hear from me regarding Kenneth Shelton's petition for
certiorari in this matter. This filing is yet another act in Shelton's nearly twenty-fiveyear campaign of fraud and deceit in an effort to keep control of assets and property he
and his inner circle diverted for personal use from the corporate entity which holds the
assets of the Church of the Lord Jesus Christ of the Apostolic Faith. This case does not,
as Shelton claims, invoke First Amendment and Free Exercise principles. Rather, it is
merely the Pennsylvania courts finally, at long last, enforcing the voluntary agreement
between Shelton and Patterson to submit to binding common law arbitration with no
right of appeal, which arbitration decided issues related solely to property. Patterson
prevailed in that arbitration, and Shelton violated the agreement. Now he seeks to dupe
this Honorable Court into ratifying his breach by miscasting this case as a state court
interfering in the governance of a church.
Because Shelton's filing fails to adequately state the facts and circumstances of this case,
I feel compelled to offer some background. This case revolves around Shelton and his
cabal's use and theft of Church property and assets for their own personal benefit. In
1991, after the death of the Church's former General Overseer, Shelton and others
seized control of the Church, its board of trustees, and the corporate entity used to hold
title to property and assets of the Church. Almost immediately, they began looting and
diverting Church property and assets and purportedly removing any Church member
that challenged their theft. Patterson challenged these acts through the Pennsylvania
courts.

Page 1 of 6

received
JUN f 6 ?n?o

Re:

Shelton vs. Patterson
19-1253

Following year$ of litigation, Shelton and Patterson voluntarily agreed to binding
common law arbitration to resolve all remaining disputes, waiving all pre-trial
arguments and rights of appeal. The agreement was memorialized in a January 10,2006
Order of the Pennsylvania Court of Common Pleas. It provided that each side of the
dispute would select three representatives and appointed a retired federal magistrate
judge as arbitrator: The arbitrator was to make all evidentiary rulings and was expressly
granted authority overall subpoenas of persons and documents. The agreement
expressly stated, "This arbitration will be binding on both parties [Patterson and
Shelton] with no right to appeal." The Order memorializing the arbitration agreement
was never appealed.
The arbitration proceeded on March 27,2006 and concluded on April 2,2006. The
arbitrator concluded that Shelton and his cabal had engaged in substantial misconduct
and diversion of Church property, money, and assets. Patterson's financial expert was
able to determine - despite the fact that Shelton had not kept appropriate business
records - that the money available in the Church's various accounts had declined by
$969,077.00 dunmg,Kenneth Shelton's period of control with no corresponding activities
or busihesscommitments, Patterson's expert also uncovered tens of thousands of
dollars spent on personal luxury items and la vish vacations as well as outsized salaries
in violation of the Church's corporate bylaws. Shelton did not retain a financial expert
to counter Bishop Patterson's expert and has never produced a shred of evidence to
refute any of these confirmed findings. The arbitrator noted that Shelton and his cabal
did not maintain appropriate financial records, making the depth of their theft difficult
or impossible to confirm. Shelton and others also improperly destroyed Church records
during the pendency of this entire litigation.
These findings have never been refuted nor reversed. Shelton's and the usurpers' theft
of Church property and assets is an irrefutable, unassailable fact.
The arbitrator directed Shelton to account for the looted Church funds and assets and
instructed the parties to locate a mutually satisfactory person or firm to act as a receiver
for those assets. Shelton refused to cooperate, and the arbitrator appointed a receiver.
The Pennsylvania Court of Common Pleas confirmed the arbitration award, finding
that Shelton's "Petitions to Vacate are nothing but disingenuous attempts to collaterally
attack and evade the Award, since the Arbitrator dearly did not misbehave nor render
an unconscionable decision." Shelton continued his obstruction, physically interfering
Page 2 of 6

Re:

Shelton vs, Patterson
19-1253

with the receiver. Meanwhile, the usurpers commenced a series of specious proceedings
in the Pennsylvania courts and elsewhere collaterally attacking the arbitration award.
Shelton appealed from the Judgment entered on the confirmed Arbitration Award disregarding his express agreement that no appeal could be taken. Wrongfully
exercising jurisdiction over the matter that they now acknowledge never existed, the
Pennsylvania Courts failed to enforce the parties' agreement that no appeal could be
taken and disregarded the fact that the agreement to arbitrate contained no limitations
on the arbitrator's authority, and reversed the judgment and vacated the award on the
purported ground that the arbitrator had exceeded his authority in rendering the
award, a ground for vacatur not authorized by law. This was done in an unpublished,
non-precedential decision, essentially making new arbitration law in Pennsylvania
applicable solely to Patterson. On November 29, 2017 the Pennsylvania Commonwealth
Court issued an order finally correcting its previous error, which recognized that the
Court's subject matter jurisdiction in this matter was limited to the enforcement of the
arbitration award addressing property ownership of the Church's corporate entity and
its offioers^compiiance with its bylaws. This ruling was entirely consistent with
Pennsylvania and federal law rendering orders and judgments issued without subject
matter jurisdiction void from inception and subject to be set aside at any time. The
matter was restored to the last point where an order or judgment was entered based
upon the application of neutral principles of law - fee confirmation of the arbitration
a ward. That is all this case entails - the enforcement of a voluntary agreement to submit
to binding common law arbitration with no right of appeal and the application of
Pennsylvania law concerning arbitration awards.
I have obeyed ah applicable state and federal laws throughout this lengthy dispute.
Even when Shelton successfully used the court system as a tool to further his illegal
conduct, my faithdid not waiver. My faith was finally rewarded, and justice served,
when the Pennsylvania courts restored the arbitration award and corrected their
interference on our agreement to arbitrate. Shelton, uncowed, resorts to frivolous filings
asking a lower court to overrule an appellate court and repeated unwarranted requests
for review and reargument The instant filing is simply a last gasp by Shelton to hold
onto his ill-gotten gains and avoid discovery of his malfeasance.
Shelton's assertion that this matter implicates the First Amendment and issues of
religious freedom is false. The arbitration award deals with property and Shelton's
corporate malfeasance, not with religious practices. The Award does not purport to
Page 3 of 6

Re:

Shelton vs, Patterson
19-1253

remove Shelton from his spiritual post, or assign to me any religious authority or
position within the Church. Rather, it places me in the position of receiver for the
Church's secular corporate entity and the property it holds and controls in die name of
the Church, Ijhayemot interfered with our Church or dictated who its Bishop is. In
short, the Court orders at issue in this Petition merely enforce Shelton's agreement to
submit to a binding common law arbitration with no right of appeal, which he lost. The
petitioner can be the Bishop anywhere he wants to, but he cannot steal Church assets.
This Court should decline review here.
If the Court requires any further detail or information on this matter, I am happy to
provide it.
Respectfully Submitted,

\

Bishop rVnthonee Patterson
1544 W.2ยง* Street
Jacksonville/ PL 32209

Page 4 of 6

